                                                       U.S. Department of Justice

                                                       United States Attorney

                                                       Eastern District of Pennsylvania

                                                       615 Chestnut Street
                                                       Suite 1250
                                                       Philadelphia, Pennsylvania 19106-4476
                                                       (215) 861-8200



                                                       August 19, 2010


                       ALLEGED FALSE DOCUMENT RING INDICTED

        Vitaliy Kroshnev, Tatyana Kroshnev, Leonid Vilchik, Iryna Starovoyt, Irina Peterson,
Khrystyna Davyda, Viktor Davyda, and Tair Rustamov, and were arrested today and are charged
by indictment1, along with Mikhail Aminov, with conspiracy to produce, and aiding and abetting
the production of, false identification documents, announced United States Attorney Zane David
Memeger. According to the indictment, unsealed today, the defendants, under the auspices of the
Kroshnev’s business “International Training Academy,” arranged for hundreds of non-residents of
Pennsylvania to fraudulently obtain Pennsylvania commercial driver’s licenses from 2007 to 2010.
The alleged co-conspirators provided applicants with false Pennsylvania residency documents, as
well as foreign language interpreters who gave applicants the answers to the written commercial
driver’s license permit test. Vitaliy Kroshnev is additionally charged with making a materially false
statement, and Khyrstyna Davyda is additionally charged with making a false statement to a bank.

                      INFORMATION REGARDING THE DEFENDANTS

             NAME                            ADDRESS                      AGE OR YEAR OF BIRTH
 Vitaliy Kroshnev                  Richboro, PA                          age 48
 Tatyana Kroshnev                   Richboro, PA                         age 45
 Leonid Vilchik                    Philadelphia, PA                      age 63
 Iryna Starovoyt                   Warrington, PA                        age 45
 Irina Peterson                    Philadelphia, PA                      age 37
 Khrystyna Davyda                  Holland, PA                           age 25
 Viktor Davyda                      Holland, PA                          age 18
 Mikhail Aminov                    Brooklyn, NY                          age 44

       1
        An Indictment or Information is an accusation. A defendant is presumed innocent unless and until
proven guilty.

                                                   1
August 19, 2010
Page 2

            NAME                          ADDRESS                 AGE OR YEAR OF BIRTH
 Tair Rustamov                   Philadelphia, PA                age 44

       If convicted, the defendants face a maximum possible sentence of 15 years imprisonment and
a $250,000 fine on the conspiracy charge. Defendants Vitaliy Kroshnev and Khrystyna Davyda face
an additional 5 years and 30 years, respectively, on the false statement charges.

      The case was investigated by the Federal Bureau of Investigation and the United States
Department of Transportation, with substantial assistance from the Pennsylvania Department of
Transportation. It is being prosecuted by Assistant United States Attorney Michelle Morgan-Kelly.




 UNITED STATES ATTORNEY'S OFFICE                   Contact: PATTY HARTMAN
 EASTERN DISTRICT, PENNSYLVANIA                             Media Contact
 Suite 1250, 615 Chestnut Street                            215-861-8525
 Philadelphia, PA 19106

       COPIES OF NEWS MEMOS AND RELATED DOCUMENTS CAN ALSO BE FOUND AT
                            HTTP://www.justice.gov/usao/pae




                                               2
